C'OCKLE

gla r -! Ad :
2311 Douglas Street Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 192 contact@cocklelegalbriefs.com
oF

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1786

JOANNE TROESCH AND IFEOMA NKEMDI,
Petitioners,
Vv.
CHICAGO TEACHERS UNION, LOCAL UNION NO. 1,
AMERICAN FEDERATION OF TEACHERS, AND THE
BOARD OF EDUCATION OF THE CITY OF CHICAGO,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE LANDMARK LEGAL FOUNDATION IN SUPPORT OF PETITIONERS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2769 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 26th day of August, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & Chi,
f RENEE J. GOSS O. ( } beens s

Affiant 41280

My Comm. Exp. September 5, 2023

 

 

Notary Public
